     Department of Homeland Security

     ��������������������������



     Independent Review of U.S. Coast Guard’s 

   Reporting of FY 2013 Drug Control Performance 

                  Summary Report





OIG-14-35                               February 2014

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov

                                      FEB 11 2014

MEMORANDUM FOR:              Rear Admiral Stephen P. Metruck
                             Chief Financial Officer
                             U.S. Coast Guard

FROM:                        Mark Bell
                             Acting Assistant Inspector General for Audits

SUBJECT:                     IndependentfReviewfoffU.S.fCoastfGuard’sfReportingfoff
                             FYf2013fDrugfControlfPerformancefSummaryfReportf
ff
Attached for your information is our final report, IndependentfReviewfoffU.S.fCoastf
Guard’sfReportingfoffFYf2013fDrugfControlfPerformancefSummaryfReport.fU.S. Coast
Guard’s management prepared the Performance Summary Report to comply with the
requirements of the Office of National Drug Control Policy Circular, AccountingfoffDrugf
ControlfFundingfandfPerformancefSummary, dated January 18, 2013.

We contracted with the independent public accounting firm KPMG LLP to perform the
review. KPMG LLP is responsible for the attached independent accountants’ report,
dated February 04, 2014, and the conclusions expressed in it. We do not express an
opinion on the Performance Summary Report. This report contains no recommendation.

Consistent with our responsibility under the InspectorfGeneralfAct, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Sandra John, Acting Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                                     Independent Accountants’ Report


Deputy Inspector General
U.S. Department of Homeland Security:

We have reviewed the accompanying Performance Summary Report of the U.S. Department of Homeland
Security’s (DHS) U.S. Coast Guard (USCG) for the year ended September 30, 2013. USCG’s
management is responsible for the Performance Summary Report.

Our review was conducted in accordance with attestation standards established by the American Institute
of Certified Public Accountants, and applicable standards contained in Government Auditing Standards,
issued by the Comptroller General of the United States. A review is substantially less in scope than an
examination, the objective of which is the expression of an opinion on the Performance Summary Report.
Accordingly, we do not express such an opinion.

Management of USCG prepared the Performance Summary Report to comply with the requirements of the
Office of National Drug Control Policy (ONDCP) Circular, Accounting of Drug Control Funding and
Performance Summary, dated January 18, 2013 (the Circular).

Based on our review, nothing came to our attention that caused us to believe that the Performance
Summary Report for the year ended September 30, 2013, referred to above, is not fairly stated in all
material respects, in conformity with the criteria set forth in the Circular.

This report is intended solely for the information and use of management of DHS and USCG, the DHS
Inspector General, the ONDCP, and the U.S. Congress, and is not intended to be and should not be used by
anyone other than these specified parties.




February 4, 2014




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
                                     Commandant                     2703 Martin Luther King Ave SE
                                     United States Coast Guard      Washington, DC 20593-7318
                                                                    Staff Symbol: DC0-81
                                                                    Phone: (202) 372-2684
                                                                    Emaii:Devin.L.Townsend@uscg.mil




                                                                   16012
                                                                   February 04, 2014

Ms. Anne L. Richards
Assistant Inspector General for Audits
Department of Homeland Security
Office of the Inspector General


Dear Ms. Richards,

In accordance with the Office of National Drug Control Policy Circular: Accounting of Drug
Control Funding and Peiformance Summary, dated January 18, 2013, enclosed is the Coast
Guard's final FY 2013 Performance Summary Report.

If you require further assistance on this information, please contact LCDR Devin Townsend,
202-372-2684.




Enclosure (1) FY 2013 Performance Summary Report

Copy:      DHS Budget Office
Enclosure (1) to letter dated February 04, 2014




                                      Drug Budget

          United States Department of Homeland Security

                           United States Coast Guard

                Performance Summary Report FY 2013




02/04/2014                                               Created by DC0-81
                                           Page 1 of 5
Enclosure (1) to letter dated February 04, 2014


I. PERFORMANCE INFORMATION

NOTE: Although the Coast Guard appropriation is apportioned along budget decision unit
lines (i.e., Acquisitions, Construction & Improvements (AC&l), Operating Expenses (OE),
Research Development Testing and Evaluation (RDT&E), and Reserve Training (RT)), the Coast
Guard does not manage peiformance along decision unit lines. This is impractical due to the
multi-mission peiformance of our assets, which transcends budget decision units.

This section is based on Coast Guard data and agency Government Performance and Results Act
(GPRA) documents.

The goal of the Coast Guard's Drug Interdiction program is to reduce the supply of illegal drugs
within the United States by denying smugglers the use of air and maritime routes and by
projecting an effective law enforcement presence in and over the six million square mile drug
Transit Zone of the Caribbean Sea, the Gulf of Mexico and the Eastern Pacific Ocean. The
Coast Guard deploys major cutters and aviation assets to the Transit Zone in support of Joint
Interagency Task Force South (JIATF-S) counterdrug efforts. In addition to its organic capacity,
the Coast Guard leverages interagency/international partnerships to enhance presence and to
expand interdiction opportunities by deploying LEDETs on USN and Allied (United Kingdom,
The Netherlands, Canada) vessels.

The Coast Guard's drug interdiction performance is best summarized by the program's primary
outcome measure, the Cocaine Removal Rate. This measure indicates how effective the program
is at disrupting the flow of cocaine traveling via non-commercial maritime means toward the
United States. The more cocaine bound for the United States that the Coast Guard removes, the
less the supply of cocaine available for consumption in the United States.

Performance Measure: Cocaine Removal Rate (Removal rate for cocaine from non-commercial
vessels in the maritime Transit Zone). This represents the percent of Cocaine removed (seized by
the U.S. Coast Guard, and jettisoned, scuttled, or destroyed as a result of U.S. Coast Guard law
enforcement action) in relationship to the Non-Commercial Maritime Movement of cocaine.
The Cocaine Removal Rate is calculated by dividing the total amount of cocaine removed by the
Coast Guard by the total estimated non-commercial maritime movement of cocaine towards the
United States. The amount of cocaine removed by the Coast Guard is the sum of all cocaine that
is physically seized by Coast Guard personnel and all cocaine lost by the transnational criminal
organizations (TCOs) due to the Coast Guard's actions. The latter amount is, at times, an
intelligence-based estimate of the quantity of cocaine onboard a given vessel that is burned,
jettisoned, or scuttled in an attempt to destroy evidence when Coast Guard presence is detected.
The estimated non-commercial maritime flow of cocaine towards the United States is extracted
from the interagency-validated Consolidated Counter Drug Database (CCDB).

p er~ormance T arge ts and ResuIts (C ocame R emovaI R a t)
                                                          e:
 Year:   FY 2009        FY 2010        FY 2011           FY 2012    FY 2013        FY2014
 Target: 15.7%          18.5%          15.5%             16.5%      14.1%          13.9%
 Actual: 15%            13.5%          11.6%             13.4%      15.3%          N/A


02/04/2014                                                          Created by DC0-81
                                           Page 2 of 5
Enclosure (1) to letter dated February 04, 2014



The 2012 National Drug Control Strategy maintains the interagency, Transit Zone removal rate
goal for cocaine of 40% by 2015; a goal originally set in the 2007 National Drug Control
Strategy. With over 80% of the cocaine moving through the Transit Zone via non-commercial
maritime means, the national goal is achievable with a higher Coast Guard cocaine removal rate,
assuming no decrease in domestic and international partner agency performance to achieve that
40% goal. Maritime Law Enforcement program managers monitor the cocaine removal rate,
watching for both changes in Coast Guard removals as well as increases or decreases in flow.
Any changes are diagnosed to determine the cause and to develop strategies and tactics to
continue to increase the removal rate. Factors that can impact the Coast Guard's removal rate
include, but are not limited to:
    • Continuously changing modes, tactics and routes by TCOs (e.g. use of submersible type
        vessels and logistic support vessels);
    • The advancing age and deteriorating condition of the Coast Guard's cutter fleet;
    • The availability of surface assets from the U.S. Navy (USN) and Allied nations to support
       Detection and Monitoring in the Transit Zone;
    • Sufficient Coast Guard Law Enforcement Detachments (LEDETs) capacity to perform
        Interdiction and Apprehension activities from USN and Allied surface assets;
    • The availability, quality and timeliness of tactical intelligence; new or upgraded
        diplomatic and legal tools;
    • The fielding of new capabilities (e.g. National Security Cutter., Fast Response Cutter, and
        Maritime Patrol Aircraft).

As a result of sequestration, the Coast Guard reduced its strategic commitment to supporting
Detection and Monitoring (D&M) on behalf of JIA TF-S. Specifically, planned ship deployments
fell by more than 30%, from an original FY 2013 target of 1,460 major cutter days to 986. The
Coast Guard also reduced planned Maritime Patrol Aircraft (MPA) support to JIATF-S to 3,207
hours, from a FY 2013 target of 4,700 hours. USN surface combatants, with embarked Coast
Guard LEDETs, stopped nearly all surface ship deployments in the last half of FY 2013 when
sequestration was in effect.

Quality of Performance Data: The Coast Guard continues to use the CCDB as its source for
tracking cocaine movement estimates. Data entered into the CCDB is validated through a
quarterly, interagency vetting process. The CCDB event-based estimates are the best available
authoritative source for estimating illicit drug flow through the Transit Zone. These estimates
permit the Coast Guard to objectively evaluate its performance. All data contained in the CCDB
are deemed to be as accurate, complete and unbiased in presentation and substance as possible.

According to CCDB, the known cocaine flow through the Transit Zone via non-commercial
means decreased in FY 2013 to 577 MT from 796 MT in FY 2012. The Coast Guard removed
88.4 MT of cocaine from the Transit Zone in FY 2013 and had a 15.3% removal rate for non-
commercial maritime cocaine flow. This constitutes a 17% reduction from the 106.9 MT of
cocaine the Coast Guard removed in FY 2012. While the Coast Guard exceeded its performance
target of removing 14.1% of non-commercial maritime cocaine flow, overall awareness of
known non-commercial maritime flow was down compared to FY 2012).


02/04/2014                                                           Created by DC0-81
                                           Page 3 of 5
Enclosure (1) to letter dated February 04, 2014


At least annually, the Coast Guard's Maritime Law Enforcement Program and Deputy
Commandant for Operations' Office of Performance Management and Assessment review
assumptions that factor into the establishment of out-year drug interdiction targets, making
adjustments as necessary. Revisions to the targets are reported via the Department of Homeland
Security's Future Year Homeland Security Program (FYHSP) database. The Maritime Law
Enforcement Program last updated its out-year performance targets in May 2013 in conjunction
with normal target setting timelines.

Due to a forecasted reduction in the level of ship and aircraft support provided to JIATF-S by the
Coast Guard and its partners in the near future, the Coast Guard's removal rate target for FY
2014 has been lowered to 13.9%. This represents an aggressive, yet achievable, performance
target with available resources.


II. MANAGEMENT'S ASSERTIONS

The following assertions, supported by the information presented above, satisfy the data,
estimation methods, and reporting systems criteria outlined in paragraph 7 .b. of the ONDCP
Circular: Accounting of Drug Control Funding and Performance Summary (January 18, 2013):

(1) Performance reporting system is appropriate and applied- The agency has a system to
capture performance information accurately and that system was properly applied to generate the
performance data.

   The Coast Guard performance reporting system is appropriate and applied. It was reviewed
   in a 2007 Independent Program Evaluation by the Center for Naval Analyses and a 2007
   OMB Program Assessment Rating Tool (PART) evaluation. Both reviews verified the
   appropriateness and application of the performance reporting system, and the Coast Guard
   has made all significant changes recommended to ensure continued validity.

(2) Explanations for not meeting performance targets are reasonable - An assertion shall be
made regarding the reasonableness of any explanation offered for failing to meet a performance
target and for any recommendations concerning plans and schedules for meeting future targets or
for revising targets or eliminating performance measures.

   The Coast Guard met its FY13 performance target. The Coast Guard's FY 2013
   performance target satisfied OMB Circular A-ll guidance for establishing targets.

(3) Methodology to establish performance targets is reasonable and consistently applied-
The methodology described above to establish performance targets for the current year is
reasonable given past performance and available resources.

   The Coast Guard methodology to establish performance targets is reasonable and applied.
   The Coast Guard uses a quantitative and qualitative process that reviews intelligence,
   logistics, strategic and operational policy, capability, emerging trends, past performance, and
   capacity variables impacting mission performance to establish performance targets. Targets


02/04/2014                                                            Created by DC0-81
                                           Page4of5
Enclosure (1) to letter dated February 04, 2014


   generated by the program manager are reviewed independently by performance and budget
   oversight offices at Coast Guard Headquarters, as well as the DHS Office of Program
   Analysis and Evaluation, prior to entry into budget documents and the DHS Future Year
   Homeland Security Program database.

(4) Adequate performance measures exist for all significant drug control activities- Each
Report shall include an assertion that the agency has established at least one acceptable
performance measure for each Drug Control Budget Decision Unit identified in reports required
by section 6a(l)(A) for which a significant amount of obligations ($1,000,000 or 50 percent of
the agency drug budget, whichever is less) were incurred in the previous fiscal year. Each
performance measure must reflect the intended purpose of the relevant National Drug Control
Program activity.

   The 2007 OMB PART of the Coast Guard Drug Interdiction Program and 2007 Independent
   Program Evaluation by the Center for Naval Analyses validated the adequacy of Coast Guard
   performance measures.

   The agency has established one acceptable performance measure that covers all four budget
   decision units for which a significant amount of obligations ($1 ,000,000 or 50 percent of the
   agency drug budget, whichever is less) were incurred in the previous fiscal year. The metric
   was also reviewed and approved by DHS leadership in 2010.




02/04/2014                                                           Created by DC0-81
                                           Page 5 of5
                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   DHS Component Liaison
   Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Office of National Drug Control Policy

   Associate Director for Planning and Budget

   U.S. Coast Guard

   Commandant
   Chief Financial Officer
   Chief Information Officer

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                                            OIG-14-35

ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
